No. 20-1627

Sn the Supreme Court of the Anited States

Richard Ducote, Victoria McIntyre, and S.S.,
Petitioners,

Vv.

S.B.,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Jane Bambauer, Richard W. Garnett, Nadine Strossen, and Eugene Volokh
in the above-entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in Century Schoolbook 12 point for the text and 10
point for the footnotes, and that the Brief of Amici Curiae contains 2,066 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Xn

Stuart Banner

UCLA School of Law

405 Hilgard Ave.

Los Angeles, CA 90095
310) 206-8506
banner@law.ucla.edu
Counsel for Amici Curiae

Executed on June 16, 2021.
